OFFICE OF AUDIT
ATLANTA REGION
ATLANTA, GA




   Little Haiti in Miami, FL, Did Not Fully Comply
   With Federal Rules When Administering NSP2




AUDIT REPORT NUMBER 2012-AT-1015         SEPTEMBER 6, 2012
                                                        Issue Date: September 6, 2012

                                                        Audit Report Number: 2012-AT-1015




TO:    Maria R. Ortiz, Director of Community Planning and Development, Miami Field Office,
       4DD

               //signed//
FROM:          James D. McKay, Regional Inspector General for Audit, Atlanta Region, 4AGA

SUBJECT:       Little Haiti in Miami, FL, Did Not Fully Comply With Federal Rules When
               Administering NSP2

    Enclosed is the U.S. Department of Housing and Urban Development (HUD), Office of
Inspector General (OIG), final results of our review of Little Haiti Housing Association’s
administration of the Neighborhood Stabilization Program 2 funds authorized under the
American Recovery and Reinvestment Act of 2009.

    HUD Handbook 2000.06, REV-4, sets specific timeframes for management decisions on
recommended corrective actions. For each recommendation without a management decision,
please respond and provide status reports in accordance with the HUD Handbook. Please furnish
us copies of any correspondence or directives issued because of the audit.

    The Inspector General Act, Title 5 United States Code, section 8L, requires that OIG post its
publicly available reports on the OIG Web site. Accordingly, this report will be posted at
http://www.hudoig.gov.

   If you have any questions or comments about this report, please do not hesitate to call me at
404-331-3369.
                                          September 6, 2012
                                          Little Haiti Did Not Fully Comply With Federal Rules When
                                          Administering NSP2




Highlights
Audit Report 2012-AT-1015


 What We Audited and Why                   What We Found

We audited Little Haiti Housing           We found no evidence that the allegations in the
Association as a result of a complaint    complaint were valid. However, Little Haiti did not
received regarding its administration     fully comply with Federal requirements when
of the multifamily activity funded        administering its multifamily activity under NSP2. It
under the Neighborhood Stabilization      reimbursed itself for tenant certification services,
Program 2 (NSP2). Our objective was       although the codeveloper fee that Little Haiti received
to determine whether Little Haiti used    covered this service. In addition, it did not ensure that
NSP2 funds in compliance with             energy efficiency and water conservation standards
Federal regulations. Specifically, we     were met and failed to comply with the affordable rent
focused on determining whether (1)        definition stated in the consortium’s NSP2 application
Little Haiti complied with Federal        to HUD. Little Haiti believed that the fee earned was
regulations when selecting and using      not required to be spent on the multifamily
the developer, contractor, and            development costs, that it complied with green
management company in the purchase,       improvement standards, and was unaware of the rent
rehabilitation, and management of the     policy established in the grantee’s NSP2 application.
multifamily property; (2) NSP2 funds      In addition, Neighborhood Housing Services did not
were used for eligible program costs      monitor Little Haiti to ensure compliance with the
and were sufficiently supported; and      latter two NSP2 requirements. As a result, $20,183 in
(3) obvious deficiencies occurred in      NSP2 funds was inappropriately reimbursed to Little
the rehabilitation work performed on      Haiti, tenants may have paid higher utility costs, and
the multifamily property.                 31 tenants paid excess rent amounts totaling $34,869.

 What We Recommend

We recommend that the Director of
Community Planning and
Development of the Miami field office
require the grantee to repay $20,183 to
its NSP2, provide documentation to
support that products purchased for the
multifamily development complied
with energy efficiency and water
conservation standards, and repay
$34,869 in excess rent to tenants.
                           TABLE OF CONTENTS

Background and Objective                                                     3

Results of Audit
      Finding: Little Haiti Did Not Fully Comply With Federal Requirements   5

Scope and Methodology                                                        10

Internal Controls                                                            12

Appendixes
A.    Schedule of Questioned Costs and Funds To Be Put to Better Use         14
B.    Auditee Comments and OIG’s Evaluation                                  15
C.    Calculated Excess Rent Amount                                          22




                                            2
                       BACKGROUND AND OBJECTIVE

On February 17, 2009, Congress enacted Public Law 111-5, known as the American Recovery
and Reinvestment Act of 2009. Title XII of Division A of the Recovery Act provided additional
emergency assistance for the redevelopment of abandoned and foreclosed-upon homes as
initially authorized under Division B, Title III, of the Housing and Economic Recovery Act of
2008. The U.S. Department of Housing and Urban Development (HUD) implemented the
Neighborhood Stabilization Program 2 (NSP2) to stabilize neighborhoods the viability of which
had been and continued to be damaged by the economic effects of foreclosed-upon and
abandoned properties. NSP2 references the funds authorized under the Recovery Act. HUD
awarded $1.93 billion in NSP2 funds, on a competitive basis, to 56 grantees, which included
States, units of general local government, nonprofits, and a consortium of public and private
nonprofit entities.

As the lead agency, the Neighborhood Housing Services of South Florida, in a consortium
agreement with the City of North Miami, Carrfour Supportive Housing, Little Haiti Housing
Association, Opa-Locka Community Development Corporation, St. John Community
Development Corporation, and the Urban League of Greater Miami, was awarded more than $89
million. The consortium, which is the grantee, planned to use NSP2 funds to stabilize
neighborhoods in north central Miami-Dade County through the acquisition and rehabilitation of
existing housing units or the redevelopment of vacant or blighted structures.

Little Haiti Housing Association (Little Haiti) is a tax-exempt nonprofit community development
corporation that serves the needs of low-income residents in the area of Little Haiti. Its mission
is to provide decent, affordable housing to residents of Little Haiti and neighboring communities
as a basis to improve their lives. The March 31, 2012, quarterly report to HUD shows that the
consortium allocated nearly $6.7 million in NSP2 funds to Little Haiti. Little Haiti planned to
use the grant funds to purchase and rehabilitate 43 houses for single-family home ownership in
the Little Haiti area and other areas of greatest need. It also planned to purchase and rehabilitate
a 65-unit development, located in North Miami, for affordable rental housing. Of the 65 units,
25 will benefit households at or below 50 percent of the area median income, and 40 will benefit
households at or below 120 percent of the area median income.

Little Haiti, through a partnership with a limited liability company, purchased the multifamily
development on December 27, 2010, as presented below.




                                                 3
The joint entity used more than $3.3 million in NSP2 funds and $1.4 million in private funds to
purchase and redevelop the property. Bel House Manager, LLC, was established as the
developer and received a developer fee paid from NSP2 funds. Little Haiti was established as
the codeveloper and received a codeveloper fee paid from the private funds.

We initiated the audit as a result of a complaint we received against Little Haiti regarding its
administration of the multifamily activity. The complaint alleged that Little Haiti had a conflict-
of-interest relationship with the developer, paid the developer for work that was not in the
original scope of work, and paid for substandard work.

Our objective was to determine whether Little Haiti used Recovery Act NSP2 funds in
compliance with Federal regulations. Specifically, our work focused on the purchase and
rehabilitation of the multifamily property to determine whether (1) Little Haiti complied with
Federal regulations when selecting and using the developer, contractor, and management
company in the purchase, rehabilitation, and management of the multifamily property; (2) NSP2
funds were used for eligible program costs and sufficiently supported; and (3) obvious
deficiencies occurred in the rehabilitation work performed on the multifamily property.




                                                 4
                                RESULTS OF AUDIT


Finding: Little Haiti Did Not Fully Comply With Federal Requirements
We found no evidence that the allegations in the complaint were valid. However, Little Haiti did
not fully comply with Federal requirements when administering its multifamily activity under
NSP2. It reimbursed itself for tenant certification services, although the codeveloper fee it
received paid for this service. In addition, it did not ensure that energy efficiency and water
conservation standards were met and failed to comply with the affordable rent definition stated in
the grantee’s NSP2 application to HUD. Little Haiti believed that the fee earned was not
required to be spent on the multifamily development costs, that it complied with green
improvement standards, and was unaware of the rent policy established in the grantee’s NSP2
application. In addition, Neighborhood Housing Services did not monitor Little Haiti to ensure
compliance with the latter two NSP2 requirements. As a result, $20,183 in NSP2 funds was
inappropriately reimbursed to Little Haiti, tenants may have paid higher utility costs, and 31
tenants paid excess rent amounts totaling $34,869.



 Assessment of Complaint


               We found no evidence that the allegations in the complaint were valid. The audit
               showed that Little Haiti complied with Federal regulations when it partnered with
               a developer, which then selected the contractor and management company to
               assist with the purchase, rehabilitation, and management of the multifamily
               property. In addition, although Little Haiti paid for work that was not in the
               original scope, the additional work was in the form of necessary and requested
               change orders that Little Haiti or the developer approved. Further, we found no
               evidence that NSP2 funds paid for substandard work.

 Noncompliance With Federal
 Requirements

               The audit showed that Little Haiti did not fully comply with Federal requirements
               when administering the program by (1) reimbursing itself for tenant certification
               services already paid for in the codeveloper fee it received that covered this
               service, (2) not ensuring that energy efficiency and water conservation standards
               were met, and (3) failing to comply with the consortium’s affordable rent
               definition.




                                                5
(1) Tenant Certification Services Paid by Codeveloper Fee and NSP2 Funds
    The agreement executed between the owner of the multifamily development
    and Little Haiti, as the codeveloper, stated that “in consideration of the
    performance by the co-developer of the development services…the Company
    [owner] shall pay to the co-developer a development fee.” As the
    codeveloper, one of Little Haiti’s responsibilities was to “assist, advise and
    consult on the selection of and provide coordination and supervision of the
    tenant certification process.” Little Haiti explained that the responsibility
    involved the income certification of tenants. However, drawdown packages
    showed that Little Haiti also charged its NSP2 for tenant certification services.
    The purpose of the charges was to reimburse Little Haiti for staff salaries and
    consultant fees to perform tenant intake and income certification services.

   Little Haiti reasoned that there was no expectation to use the codeveloper fee
   on costs associated with the multifamily development. In addition, it
   emphasized that the tenant certification services are an allowable project
   delivery cost under NSP2. Similarly, Neighborhood Housing Services
   believed that Little Haiti earned the negotiated portion of the developer fee by
   being the equity partner in the transaction and agreed that the tenant
   certification services were an eligible cost to its NSP2.

   Appendix A of 2 CFR (Code of Federal Regulations) Part 230 states that to be
   allowable under an award, costs must be reasonable for the performance of the
   award. Little Haiti received both the codeveloper fee and NSP2 funds for
   performing tenant certification services. Therefore, it was not reasonable or
   eligible for Little Haiti to receive additional NSP2 funds for performing that
   service. Although tenant certification services are eligible activity delivery
   costs, NSP2 funds cannot pay for these services when Little Haiti has already
   received payment from its codeveloper fee.

   Drawdown packages showed that NSP2 funds reimbursed Little Haiti $33,743
   for costs related to tenant certification services. Of that amount, $20,183
   reimbursed Little Haiti for the salaries of the staff and consultant that
   performed the tenant certification function. The $20,183 is ineligible because
   the codeveloper fee paid to Little Haiti had already reimbursed it for this
   service. The other $13,560 paid the consultant for work not related to the
   tenant certification services on the multifamily activity and for work on the
   single-family activity. Since Little Haiti’s multifamily and single-family
   activities are separate, the cost to each activity should also be tracked and
   reported separately. Little Haiti acknowledged that it should have separated
   the time worked on the two activities. Further, the developer budgeted
   $65,000 in tenant certification services for the project’s development. The
   balance of the funds not yet reimbursed to Little Haiti under this category,
   $31,257 ($65,000 - $33,743), would be funds to be put to better use and
   should be reallocated for grantee’s other eligible NSP2 activities.



                                  6
(2) Purchased Goods Not Energy or Water Efficient
    In its NSP2 application, the grantee defined the standards for its housing
    rehabilitation work. It indicated that it would require NSP2 housing
    construction to be energy efficient and incorporate cost-effective green
    improvements. The grantee adopted HUD’s standard for gut rehabilitation for
    residential buildings up to three stories, which must be designed to meet the
    standard for Energy Star Qualified New Homes. Other rehabilitation must
    meet these standards to the extent applicable to the rehabilitation work
    undertaken, such as replacing older obsolete products and appliances with
    Energy Star-labeled products. Water-efficient toilets, showers, and faucets,
    such as those with the Water Sense label, must be installed. The grantee
    stated that these green features would save homeowners 20 to 25 percent of
    their energy costs.

   Little Haiti believed that the products purchased complied with the standards.
   However, our review of documentation provided by the contractor and
   Internet searches of the products, such as the toilet, air conditioning unit, and
   refrigerator purchased for the multifamily units, did not support that they
   complied with the energy efficiency or water conservation standards.
   Neighborhood Housing Services acknowledged that it did not incorporate
   monitoring procedures to ensure that the multifamily development complied
   with the green standards, but that it will incorporate them into future
   inspections. By not installing energy- and water-efficient products, Little
   Haiti may have caused tenants to unnecessarily pay more for their energy
   consumption, which was not the intent of the program.

(3) Excess Tenant Rents
    Appendix I.B.2.a. of the May 4, 2009, Notice of Fund Availability for NSP2
    states that the applicant in its NSP2 application will define the “affordable
    rents” that it will apply for each or all of its NSP2 activities. In its NSP2
    application, the grantee stated that it adopted the HOME Investment
    Partnerships Program standards for affordable rent definition, rent limitations,
    utility allowances, and rental and home ownership periods of affordability and
    other provisions. Specifically, it defined affordable rents as rents that do not
    exceed 30 percent of the monthly gross income of eligible households.

   We reviewed the rents paid by tenants living at the multifamily development.
   As of the March 31, 2012, rent roll, 61 of the 65 units were occupied. Of the
   61 families, 31 paid rents that exceeded 30 percent of their monthly gross
   income. The excess rent paid by the 31 families totaled $34,869.

   Little Haiti had appropriately set aside 25 of the 65 units to house families
   with incomes at 50 percent of the area median income or below and allowed
   them to pay a lower rent amount. It explained that due to the cash flow needs
   of the development, the lower rent amounts were available only on the studio
   and one-bedroom units, not the two-bedroom units. When additional eligible

                                 7
                families wanted to rent at the development or to rent a two-bedroom unit,
                officials from Little Haiti and the management company said that a family
                could only do so if its monthly gross income was at least 2.5 times the rent
                amount. Officials explained that the 2.5 threshold was used because it was an
                industry standard. The rent amounts were below the HUD published fair
                market rents for the area.

                However, the procedure followed by Little Haiti was not consistent with what
                the grantee agreed to in its NSP2 application. Little Haiti was not aware of
                the affordable rent definition established in the grantee’s NSP2 application,
                nor was it aware of the grantee’s policies and procedures related to rent limits.
                Additionally, Neighborhood Housing Services stated that it had not yet
                performed a review on the tenant files to ensure that Little Haiti complied
                with the affordable rent definition, but moving forward it will take steps to
                ensure compliance.

                For the 31 families, we calculated the monthly excess rent amount by
                subtracting 30 percent of the family’s monthly gross income from the monthly
                rent amount. We calculated the excess rent amount for a period by
                multiplying the monthly excess rent amount by the number of full months the
                tenant leased the unit through June 30, 2012 (see appendix C for details).
                Because the grantee defined “affordable rent” as rent that does not exceed 30
                percent of the monthly gross income of the eligible household, the $34,869
                was an ineligible receipt and should be repaid to the respective tenants.

Conclusion

             We found no evidence that the allegations of the complaint were valid. However,
             the audit showed that Little Haiti did not fully comply with Federal requirements
             by (1) reimbursing itself for tenant certification services performed, although the
             codeveloper fee Little Haiti received paid for this service; (2) not ensuring that
             energy efficiency and water conservation standards were met; and (3) failing to
             comply with the consortium’s affordable rent definition. The first deficiency
             occurred because Little Haiti believed that the codeveloper fee earned was not
             required to be spent on the multifamily development costs. For the second
             deficiency, it believed it complied with the green standards. The third deficiency
             occurred because Little Haiti was unaware of the rent policy the grantee
             established in the NSP2 application. In addition, Neighborhood Housing Services
             did not monitor Little Haiti to ensure that it complied with the energy efficiency
             and water conservation standards and the affordable rent definition established by
             the grantee in its NSP2 application. As a result, $20,183 in NSP2 funds was
             inappropriately reimbursed to Little Haiti for the services paid for by the
             codeveloper fee; tenants may have paid higher utility costs, which is contrary to
             the program’s intent; and 31 tenants paid excess rents totaling $34,869.



                                              8
Recommendations

          We recommend that the Director of Community Planning and Development of the
          Miami field office require Neighborhood Housing Services to

          1A. Repay its NSP2 from non-Federal funds for $20,183 in tenant certification
              services paid to Little Haiti.

          1B. Determine the amount of the $13,560 in consultant costs charged to the
              tenant certification services line item that is related to the single-family
              program and reclassify that amount to the single-family activity. In
              addition, it should determine the amount of the $13,560 that is related to the
              multifamily program but not related to the tenant certification services and
              reclassify that amount to an appropriate multifamily line item.

          1C. Reallocate the $31,257 in funds not yet drawn down from the tenant
              certification services line item for other eligible NSP2 uses.

          1D. Support that appliances and products purchased with NSP2 funds for the
              multifamily development complied with the energy efficiency and water
              conservation standards stated in the grantee’s NSP2 application.

          1E. Repay the excess rent amount of $34,869 to the 31 families living in the
              multifamily property whose rent amount exceeded 30 percent of their monthly
              gross income.

          1F. Revise and enforce its policies and procedures to ensure that the consortium
              members comply with the standards and definitions stipulated in the NSP2
              application. Specifically, Neighborhood Housing Services should incorporate
              detailed guidance on what and how to monitor its consortium members to
              ensure that appliances and products purchased with NSP2 funds meet the
              energy efficiency and water conservation standards and that rents charged to
              eligible households meet the affordable rent definition.




                                           9
                         SCOPE AND METHODOLOGY

Our objective was to determine whether Little Haiti used Recovery Act NSP 2 funds in
compliance with Federal regulations. Specifically, our work focused on the purchase and
rehabilitation of the multifamily property to determine whether (1) Little Haiti complied with
Federal regulations when selecting and using the developer, contractor, and management
company in the purchase, rehabilitation, and management of the multifamily property; (2) NSP2
funds were used for eligible program costs and sufficiently supported; and (3) obvious
deficiencies occurred in the rehabilitation work performed on the multifamily property.

To accomplish our objective, we

       Reviewed relevant Federal laws and regulations to include the Recovery Act, Notice of
       Fund Availability for NSP 2, 24 CFR Part 230, and NSP Policy Alerts;

       Communicated with HUD officials to clarify HUD regulations and policies and discuss
       deficiencies; and

       Interviewed Neighborhood Housing Services and Little Haiti officials to understand the
       procedures staff followed in administering NSP2 as they related to our audit objectives
       and to obtain clarifications during fieldwork.

In addition, we determined whether the purchase of the multifamily property and rental of the
units complied with Federal requirements. Our review indicated an issue with the tenant rents.
As of the March 2012 rent roll, 61 of the 65 units were occupied. Using the tenants’ income data
and the rent amounts provided by Little Haiti, we identified 31 tenants whose rent may have
exceeded 30 percent of the income amount. We selected these files for review to determine
whether Little Haiti complied with the affordable rent definition indicated in the grantee’s NSP2
application to HUD.

We also reviewed deposits and disbursements from Little Haiti’s operating account for the
period January 1, 2010, to April 4, 2012, to determine whether deficiencies existed. We selected
16 the transactions based on high dollar amount, frequency of receipt or payment, name of
payee, or description of the transaction. We also reviewed drawdowns to assess whether the
expenditures were eligible to be paid with NSP2 funds and sufficiently supported. Excluding the
vouchers reviewed by HUD during its monitoring review, we selected four vouchers that had the
largest drawdown amounts from Little Haiti’s multifamily rental activity. The vouchers, totaling
$1,280,052, accounted for 37 percent of the total drawdown amount from the multifamily
activity and 29 percent of the total drawdown amount for all Little Haiti activities.

We did not perform a 100 percent selection or a representative selection of the tenant files,
deposits and disbursements listed on Little Haiti’s operating account, or drawdown packages
using statistical or nonstatistical sampling. Given our methodologies, the results of our review
apply only to the samples selected for review and cannot be projected to the universe of tenants,
Little Haiti’s deposits and disbursements, and drawdowns.

                                               10
Further, to review the rehabilitation work, we interviewed the general contractor and developer
to obtain information and clarification on the work performed, inspectors who performed the
inspections before the drawdown of NSP2 funds was approved, and a former City of North
Miami plumbing inspector. We subpoenaed and reviewed records from the City pertaining to
code violations and permit history regarding the multifamily property. In addition, we compared
the green building features the grantee established in its NSP2 application with the rehabilitation
work, and selected a few products purchased and installed at the multifamily development to
determine whether they complied with the energy efficient and water conservation standards.
Lastly, we conducted an onsite visit to inspect the property and selected units.

We determined that computer-processed data generated by Little Haiti or Neighborhood Housing
Services were not used to materially support our audit findings, conclusions, and
recommendations. Thus, we did not assess the reliability of their computer-processed data.

Our review generally covered the period February 1, 2009, to January 31, 2012, and was
extended as needed. We performed the work from March to July 2011 at Little Haiti’s office
located at 181 NE 82nd Street, Miami, FL, at Neighborhood Housing Services’ office located at
300 NW 12th Avenue, Miami, FL, and our office in Miami, FL.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective.




                                                11
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

       Effectiveness and efficiency of operations,
       Reliability of financial reporting, and
       Compliance with applicable laws and regulations.


Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.


 Relevant Internal Controls

               We determined that the following internal controls were relevant to our audit
               objective:

                  Program operation - Policies and procedures that management has
                  implemented to reasonably ensure that the program meets its objectives.
                  Compliance with laws and regulations - Policies and procedures that
                  management has implemented to reasonably ensure that program
                  implementation is consistent with laws and regulations.
                  Relevance and reliability of information - Policies and procedures that
                  management has implemented to reasonably ensure that operational and
                  financial information used for decision making and reporting externally is
                  relevant, reliable, and fairly disclosed in reports.
                  Safeguarding of assets - Policies and procedures that management has
                  implemented to reasonably prevent and promptly detect unauthorized
                  acquisition, use, or disposition of assets and resources.

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.


                                                 12
Significant Deficiency

            Based on our review, we believe that the following item is a significant deficiency:

                Little Haiti did not fully comply with Federal requirements by (1) reimbursing
                itself for tenant certification services performed, although the codeveloper fee
                that Little Haiti received covered this service; (2) not ensuring that energy
                efficiency and water conservation standards were met; and (3) failing to
                comply with the consortium’s affordable rent definition.




                                             13
                                   APPENDIXES

Appendix A

              SCHEDULE OF QUESTIONED COSTS
             AND FUNDS TO BE PUT TO BETTER USE

              Recommendation                               Funds to be put to
                      number             Ineligible 1/          better use 2/
                   1A                       $ 20,183
                   1C                                                $ 31,257
                   1E                       $ 34,869                 _______
                  Total                     $ 55,052                 $ 31,257

1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or Federal, State, or local
     policies or regulations.

2/   Recommendations that funds be put to better use are estimates of amounts that could be
     used more efficiently if an Office of Inspector General (OIG) recommendation is
     implemented. These amounts include reductions in outlays, deobligation of funds,
     withdrawal of interest, costs not incurred by implementing recommended improvements,
     avoidance of unnecessary expenditures noted in preaward reviews, and any other savings
     that are specifically identified. If the grantee implements our recommendation, it will
     reallocate the remaining funds from the tenant certification services line item to other
     eligible NSP2 uses.




                                            14
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 1




                         15
Comment 2



Comment 3




            16
17
18
Comment 1




Comment 2




Comment 3




            19
                          OIG Evaluation of Auditee Comments


Comment 1   Little Haiti did not agree with the tenant certification services issue in the finding.
            It believed that one of its responsibilities as the codeveloper was to assist, advise,
            consult, coordinate, and supervise the tenant certification process, which differed
            from the actual performance of tenant certification. Little Haiti stated it had a
            verbal agreement with the owner to perform the tenant certification services. To
            clarify the issue, Little Haiti recommended that it execute an agreement with the
            owner of the multifamily development, RUDG-LHHA Bel House, LLC, to
            provide tenant certification services. In addition, Little Haiti indicated that it had
            reallocated the balance of the funds budgeted to the tenant certification line item
            to other approved development costs.

            The overall performance of the tenant certification process entails assisting,
            advising, consulting, coordinating, and supervising the client intake, application
            and document collection, income verification, copying, and filing processes.
            OIG’s assessment was based on the conditions established by the codeveloper
            agreement. HUD and the OIG will review documentation Little Haiti provides to
            determine whether the recommendation is resolved. In addition, to address
            recommendation 1C, Little Haiti needs to provide the applicable documents to
            show that it reallocated the balance of the funds to other eligible NSP2 activities.

Comment 2   Little Haiti stated that it will collect documents to support that appliances
            purchased and installed met the requirements established in the grantee’s NSP2
            application. In addition, Neighborhood Housing Services stated that it advised its
            third party inspection engineers to monitor a project’s compliance with the green
            features.

            Little Haiti’s submission of the abovementioned documents will resolve
            recommendation 1D. In addition, to address recommendation 1F, the grantee
            needs to provide to HUD its revised policies and procedures which incorporate
            detailed guidance on what and how consortium members will be monitored to
            ensure that appliances and products purchased with NSP2 funds meet the green
            improvement standards.

Comment 3   Little Haiti disagreed with the rent calculation issue in the finding. It stated that
            the grantee adopted the HOME affordability regulations and that the affordable
            rent definition in the grantee’s NSP2 application referred to the manner in which
            maximum rents are calculated, and not that tenant rents are calculated based upon
            the tenant’s family income.

            The Notice of Fund Availability for NSP2 allows an applicant to define the
            “affordable rents” it will apply for its NSP2 activities. In its NSP2 application to
            HUD, the grantee stated that it adopted the HOME standards for affordable rent
            definitions and it specifically defined affordable rents as rents that do not exceed

                                              20
30 percent of the monthly gross income of eligible households. We based our
assessment on this stipulation which the grantee established in its application to
HUD. As a result, the grantee did not charge rents as defined in its NSP2
application and the $34,869 in excess rents received should be repaid to the
respective tenants.




                                 21
Appendix C

                 CALCULATED EXCESS RENT AMOUNT


                                                      Total excess                  Total excess    Total
                            30% of                   rent from lease                 rent from     excess
                            tenant’s   Lease rent      start date to   Lease rent   3/1/2012 to     rent
     Unit #   Lease start   monthly     (before          3/1/2012      (effective    6/30/2012     amount
#     (a)        date       income     3/1/2012)            (b)        3/1/2012)        (b)          (b)

1    W107      4/1/2011     $    208   $     564         $   3,913     $      533   $      1,299   $   5,212
2    W109      4/1/2011     $    231   $     564         $   3,666     $      533   $      1,209   $   4,876
3    W110      3/1/2011     $    266   $     564         $   3,575     $      533   $      1,068   $   4,642
4    W203      4/1/2011     $    261   $     564         $   3,330     $      533   $      1,087   $   4,417
5    W205     3/16/2012     $    478   $     541         $        -    $      513   $        105   $    105
6    W208      3/1/2011     $    454   $     564         $   1,205     $      533   $        314   $   1,520
7    W210      2/1/2011     $    693   $     725         $     417     $      725   $        128   $    545
8    E101      2/1/2012     $    463   $     541         $      78     $      513   $        198   $    276
9    E102     1/21/2012     $    425   $     541         $     116     $      513   $        350   $    466
10   E103     12/17/2011    $    481   $     541         $     120     $      513   $        128   $    248
11   E104     12/17/2011    $    753   $     825         $     143     $      825   $        286   $    430
12   E106     2/20/2012     $    601   $     725         $        -    $      725   $        496   $    496
13   E108      2/1/2012     $    654   $     725         $      71     $      725   $        284   $    355
14   E110     2/25/2012     $    652   $     725         $        -    $      725   $        292   $    292
15   E111      2/8/2012     $    654   $     725         $        -    $      725   $        284   $    284
16   E113     12/21/2011    $    650   $     825         $     350     $      825   $        700   $   1,050
17   E205     2/14/2012     $    550   $     725         $        -    $      725   $        699   $    699
18   E206     2/25/2012     $    550   $     725         $        -    $      725   $        701   $    701
19   E207     12/30/2011    $    551   $     725         $     349     $      725   $        697   $   1,046
20   E209     12/19/2011    $    786   $     875         $     177     $      875   $        354   $    532
21   E210     1/27/2012     $    673   $     725         $      52     $      725   $        209   $    261
22   E303     1/23/2012     $    475   $     625         $     150     $      625   $        600   $    750
23   E304     12/17/2011    $    702   $     875         $     346     $      875   $        692   $   1,038
24   E305      1/2/2012     $    560   $     725         $     165     $      725   $        660   $    825
25   E307      2/1/2012     $    570   $     725         $     155     $      725   $        620   $    775
26   E308     2/10/2012     $    507   $     533         $        -    $      533   $        104   $    104
27   E309     12/29/2011    $    660   $     875         $     430     $      875   $        860   $   1,290
28   E311     2/20/2012     $    563   $     725         $        -    $      725   $        649   $    649
29   E312     12/16/2011    $    700   $     725         $      50     $      725   $        100   $    150




                                                    22
          CALCULATED EXCESS RENT AMOUNT (continued)

                                                       Total excess                  Total excess    Total
                             30% of                   rent from lease                 rent from     excess
                             tenant’s   Lease rent      start date to   Lease rent   3/1/2012 to     rent
      Unit #   Lease start   monthly     (before          3/1/2012      (effective    6/30/2012     amount
 #     (a)        date       income     3/1/2012)            (b)        3/1/2012)        (b)          (b)
 30     E313   1/18/2012     $    743   $     875         $     132     $      875   $        527   $    658
 31     E314   12/15/2011    $    514   $     564         $     101     $      533   $         78   $    179

                   Total                                  $   19,091                 $    15,778    $ 34,869

Notes

(a) The multifamily development is comprised of two separate buildings, a 20-unit west building
    and a 45-unit east building. A “W” in front of the unit number signifies a unit from the west
    building, and an “E” signifies a unit from the east building.

(b) Differences in calculation are due to rounding.




                                                     23
